GR-80-98-028
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Aurora Police Department, Aurora, Colorado
 
GR-80-98-028
 
July 31, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Aurora Police Department, Aurora, Colorado. The
Aurora Police Department received a grant of $1,950,000 to hire or rehire 26 sworn police
officers under the Police Hiring Supplement (PHS) program, and $1,050,000 to hire or
rehire 14 police officers under the Universal Hiring Program (UHP). The purpose of the
additional officers is to enhance community policing efforts.
Budgeted funds for police services and the number of officers budgeted increased each
year since FY 1993, the year the PHS grant was initiated. Funds provided under the grant
were used to enhance the Aurora Police Department's community policing efforts. The number
of officers performing community policing activities increased by the number of officers
funded under the grant.
However, we found the following weaknesses with regard to meeting the grant conditions:


 Two Financial Status Reports were not prepared and one was not submitted timely.
    In addition, the number of funded sworn officer positions was understated by two in the
    Department Annual Report.
 Unallowable costs totalling $140,163 for the PHS grant and $12,209 for the UHP
    grant were included in total costs incurred. However, the unallowable costs did not result
    in any over reimbursements.


#####